DOEF 1325.88,,

United ,tates Government                                                         Department of Energ


memorandum
       DATE:     October 3, 2003                                    Audit Report Number: OAS-L-04-01
  REPLY TO
    ATTN OF:     IG-35 (A03DC010)

    SUBJECT:     Audit of "Audit of Resolution of Safety Deficiencies"

           TO:   Assistant Secretary for Environmental Management
                 Assistant Secretary for Environment, Safety and Health
                 Director, Policy and Internal Controls Management
                 Director, Office of Nuclear Energy, Science and Technology
                 Director, Office of Science
                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy (Department) is responsible for ensuring the safety and health
                 of people who work at and live near its facilities. A primary means of carrying out this
                 responsibility is through the conduct of both internal and independent evaluations to
                 identify safety deficiencies. Many systems, both at the contractor and Department sites,
                 have been established to track identified deficiencies and ensure implementation of
                 corrective actions.

                 At least five corporate systems have been established at the Headquarters level to track
                 safety information. The Safety Issues Management System (SIMS) tracks safety
                 deficiencies identified by the Defense Nuclear Facilities Safety Board (DNFSB), an
                 independent review group. Similarly, the Corrective Action Tracking System (CATS)
                 primarily tracks corrective actions for the deficiencies identified by the Office of
                 Independent Oversight and Performance Assurance. In contrast, the Occurrence Reporting
                 and Processing System (ORPS) is a self-reporting system which tracks safety events that
                 could adversely affect the public, worker health and safety, the environment, national
                 security, and the functioning of Department facilities. Also a self-reporting system, the
                 Non-Compliance Tracking System (NTS) tracks contractor-identified safety deficiencies.
                 Finally, the Computerized Accident/Incident Reporting System (CAIRS) contains data
                 from the Department and its contractor on reports of injury/illness, property damage, and
                 vehicle accident events. Specific guidance and reporting criteria have been established for
                 each system.

                 The objective of our audit was to determine whether identified safety deficiencies have
                 been corrected. Specifically, the survey focused on whether planned corrective actions
                 had been implemented as scheduled. It did not determine whether those actions corrected
                 the problems identified.
                                                                                                             schedule.
    CONCLUS-IONS AND OBSERVATIONS
                                 d that some correiv actios. had not been                iplenented       ass      uled
                                                                                                            that 36 53
    The survey disclosedn thos contained in SIMS, CATS,                   d
                                                                                   and NTSdateand
                                                                            completion           forfound
                                                                                                      the remaining
           overdue89toopen
                                    action
                                        degrees. While the planne                            for those delays related
     weresampled
    We                       varying
                                                                                                         delays related
                       not  passed,    some    milestones    had been missed. Except for those
     actions    had                                              Department officials were generally satisfied
     to the   safety     deficiencies    reported     in SIMS,
                                                                         corrective              They believed
                                                                                       actions.Department         that
            ollectivecontractor's
     with the         on            progresss ino
                              t to pr                    pe gmost    o rep   ee past, the
                                                                                     past, the Deparent       had  made
                                                                                                               hadmade
                                              justified;  and that  in the  recent
      the reasons for delays were
      progress on many overdue               actions.
                                                                    about the Department's performance in
       Nevertheless some officials wee concerned
                                                                        of these concerns,     in March 200 the
       meeting c           toments to the DNFSB Because        outlining    actions   to enhance the Department's
       Deputy Secretary issued             a  memorandum
                                                                                         response t DNFSBwe
                                                                 of actions taken inalready
         performance and ensure the effectiveness          results, and  the  actions             in progress,
                                Based   on   the  survey
        comm itments.                                                                                             thatthe
                         that   this issue   did  not  warrant   additional effort However, we suggest
        concluded
                                        in its  efforts  to effectively   address and resolve safety issues,
                           continue
         especially with regard to the DNFSB
        Department                                           commitments.

                                                                               tacking systems arenot
                       y  fte      discloser d  tha the Department safety owither systcmpre          independent
              sue
              e                                              systems and some
          integrated. Currently the five corporate                                      t
                                                                                    n comprehensive           g
           and   stove-pipedtoand,    therefore, do not provide manageme with
           collective data monitor the status of Department-wide afety information. Thre high
           level Department official---the DNFSB representative; the Deputy Diector, Office of
                                                              Assurance    andbelieved       NTS, Secetary
                                                                                        that Assistant
                                                                                the Deputy
             nlevelepareent   Ovef
            independent Oversight
                                          asd
                                          and  Performance
                                               Performanc       Assessment ---
                                                                                        that NTS, SIMS, CATS,
                                                              Assessmentbelieved               enable line they
                      the of Corporate Performance
                  for Office                          be integrated
                                                      band
                                                                                        would Additionally,
                                                                     or merged. Thistrends.
             and other similar         terns
                                   systems    should
                                                                                                             they
                              to see  across   all systems  for common issues and trends. Additionally,
             management
                                                                     to merge thesesystems
             believed it would be fiscally more economical
                                                                                                    in 2001 to
                                             comissioned      by the Under Secretary of Energy
                        An         review,
                             independent
                         opprtunitiews
              An independent       revif  for theDepartment to improve safety m angement and gain work
               efficiencies, recopportu  ended that the Department make a concerted effort consolidate
                                                          team's
                                                      The of      findings were   presented       November
                                                                                             in a(EH)        2001
                          its reporting
                      ofSince
                   some
               reportf                    systems.
                                 that time,   the Office     Environment,    Safety  and Health        has prepared
               the Departmental Order that combines the reporting requirements for ORPS and CAIRS,

                                                                                               to aligning
                             tracking systems.  According to EH officials, ths is a first step
               two corporate
               these systems. However, much more needs to be done.
                                                   the Departimental Representative  to the DNFSB, in
                           we suggest that EH  and
                Therefore, the Chief Information Officer, identify all safety tracking  systems and
                concert with

                                                                                                                   Livermore, and Oak
                                                      the Department, including such sites as Los Alamos, Lawrence
                                               across
               open addres safety deficiencies
         Theseaction
                                                 Site.
Ridge National Laboratories and Savannah River
2 Our survey was limited to open actions contained in SIMS, NTS, and CATS.



                                                                   2
conduct a study to determine the feasibility of merging or integrating these systems. If
deemed feasible, a plan should be developed, that includes target dates, to merge or
integrate those systems. Program Secretarial Offices should also conduct a study at their
respective field sites to identify field systems that can be merged or integrated.

The implementation of these suggestions would assist the Department in meeting the
goals of the Clinger-Cohen Act of 1996, which requires that the Department develop,
maintain, and facilitate the implementation of a sound and integrated Information
Technology Architecture. The vision of this architecture, among other things, is to make
common, reliable data available for sharing Department-wide and minimize redundant
and duplicative systems.

SCOPE AND METHODOLOGY

The audit was performed from April 2003 to September 2003 at Department Headquarters in
Washington, DC, and included the Offices of Environmental Management, Environment,
Safety and Health, Independent Oversight and Performance Assurance, and the Departmental
Representative for the Defense Nuclear Facilities Safety Board.

To accomplish the audit objective, we:

    *   Reviewed Federal and Departmental requirements related to safety deficiencies
        and tracking systems;
    *   Reviewed prior external and internal reports regarding safety deficiencies and
        tracking systems;
    *   Determined the number of open and overdue deficiencies and corrective actions
        for the SIMS, CATS, and NTS systems;
    *   Examined budgetary information related to EH corporate systems;
    *   Reviewed a sample of reports and corrective actions from SIMS, CATS, and
        NTS;
    *   Discussed safety deficiencies and corrective actions with cognizant officials in EH
        and the Departmental Representative to the DNFSB;
    *   Reviewed existing corporate safety tracking systems for integration or linkage;
    *   Interviewed personnel from the Office of the Chief Information Officer regarding
        the Department's Information Technology Architecture; and,
    *   Reviewed relevant performance measures.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits, and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, we assessed the significant internal controls related to the nuclear facilities.
Because our review was limited, it would not necessarily have identified all internal
control deficiencies that may have existed. Additionally, we did not rely extensively on
computer-processed data.




                                       3
Since no recommendations are being made in this Letter Report, a formal response is not
required. We appreciate the cooperation of your staff during the audit.




                                     Lawrene R. Ac erl, Di ision irector
                                     National Nuclear Security Administration
                                      Audits Division
                                     Office of Inspector General

cc: Departmental Representative to the Defense Nuclear Facilities Safety Board
    Director, Office of Independent Oversight and Performance Assurance
    Director, Office of Price-Anderson Enforcement
    Team Leader, Audit Liaison Team, ME-1




                                     4
                                                                                  Departmentof Energy
   S1325.8
              Government
United States


mne morandum
     DATE:       October 3, 2003

                                                               of Safey ficiencies"
   REPLY          G35(A03DC010)           "Audit of Resolution  f Safety Def
                  Final Reprt package for
    sUBAECT:
    SUB3ECT.      Fial       epor'         Audits and Administration                        ^inent details are*
                                                   and Ad    Oinispation
           TO:    Director for performance Audits
                                                       pac   on    te    subject auit. The pertinent details are:
                                                report
                  Attached is he required final
                                          161
                    1. Actual Staff days:
                                              12
                         Actual Elapsed days:
                                           audit staff
                     2. Names of OIG
                                  tant Director. David Sedillo
                             Assistant Direct       rowder
                                                  Cro
                             Team Leader: LyndaDellaBobian
                             Auditor-inCharge:
                              A dit            th              and Inspections: April 2003, August 2003, and
                                            with Investigations
                         3     Coordination
                              SSeptember 2003.


                                                                                             -rector
                                                                       Ackfse'y

                                                           NNSA Audits DivisionGeneral
                                                           Office of Inspector


                              Attachments:
                              1.Final Report (2)
                                2.Monetary  Impact Statement
                              2.   Audit ProAect Summary Report
                               4. AuditDatabase Information Sheet
                               MONETARY IMPACT OF REPORT NO.: OAS-L-04-01

      1. Title of Audit:         Audit of Resolution of Safety Deficiencies

      2. Division:               NNSA Audits Division/Washington Audit Group

      3. Project No.:            A03DC010

      4. Type of Audit:
             Financial:                                           Performance:       X
                Financial Statement                                 Economy and Efficiency                       X
                Financial Related                                   Program Results
             Other (specify type):

5.
                                                                                          MGT.         POTENTIAL
           FINDING                BETTER USED              QUESTIONED COSTS             POSITION        BUDGET
                                                                                                        IMPACT
                                        Recurring
(A)              (B)              (C)     (D)          (E)           (F)         (G)      (H)              (I)
                 Title           One    Amount      Questioned   Unsupported    Total   C=Concur         Y=Yes
                                 Time     Per        Portion       Portion              N=Noncon         N=No
                                         Year                                           U=Undec
      Audit of Resolution of                                                   N/A
      Safety Deficiencies




TOTALS--ALL FINDINGS


      6. Remarks: None

      7. Contractor:            None                 10. Approvals:
      8. Contract No.:           None                Division Director & Datj.                               ,
      9. Task Order No.:            None             Technical Advisor & Date:                     /
                                                     Office of the Inspector General (OIG)
                                                Audit Project Office Summary                                     (APS)
                                                                                                                                                Page 1
Report run on:                             October 2, 2003 12:58 PM


  Audit#: A03DC010                     Ofc:    CFA     Title: TIMELY RESOLUTION                        OF SAFETY DEFICIENCIES

                                                                       S**** Milestones       ****''         .
                                                      Planned                 End of Survey              Revised                   Actual


   Entrance Conference:.....                         01-OCT-02                                         10-APR-03            10-APR-03
   Survey:..................                                                                           18-AUG-03             18-AUG-03
   Draft Report:.............                     12-SEP-03                                            30-SEP-03
   Completed (With Report):.                      14-OCT-03                                            14-OCT-03                            (   )
   ------------            Elapsed Days:                        378                                              187                 176
                                                                                                                 Elap. Less Susp:
   Date Suspended:                                                          Date Terminated:
   Date Reactivated:                                                        Date Cancelled:
   DaysSuspended(Cur/Tot):                                                ) Report Number:
  Rpt Title:                                                                Report Type:                     Not Found



                                                            :
                                                      *.*        'lAudit
                                                                 i**     Co'''bdes':`and .Personnel          ****
  Class:              PER      PERFORMANCE
   Program:           EH3      Not Found
  MgtChall: 005                NATIONAL SECURITY (F
                                                                                           AD: 152               SEDILLO
   Site:             MRA       MULTI-REGION AUDIT
                                                                                        AIC:       386           BOBIAN
  SecMiss:                     Not Found
                                                                                  Team Ldr:        84            CROWDER
  PresInit:                    Not Found                                          Tech Adv:                      Not Found

                                                            .***       Task' Information ****

         Task No:
         Task Order Dt:                                                     CO Tech. Rep:
         Orig Auth Hrs:                                                     Orig Auth Costs:
          Current Auth:                                                     Current Auth Cost:
          Tot Actl IPR Hr:                                                  Tot Actl Cost:


                                                                   ****     Time Charges ***.*
                          Emp/Cont Namei':             Numdays'. -•:            ."Last Date              :          :   '   ::;i      .
                          YOUNG,       T                              6.0        14-JUN-03
                          CROWDER, L                               16.5          20-SEP-03
                          WALL,    J                               44.5          12-JUL-03
                          BOBIAN,      D                           94.2          20-SEP-03
                           Total:                               161.2
                     AUDIT DATABASE INFORMATION SHEET


1. Project No.: A03DC010

2. Title of Audit: Audit of Resolution of Safety Deficiencies

3. Report No./Date: OAS-L-04-01, October 3,2003

4. Management Challenge Area: Safety and Health

5. Presidential Mgmt Initiative: N/A

6. Secretary Priority/Initiative: N/A

7. Program Code:

8. Location/Sites: Headquarters

9. Finding Summary: N/A

10. Keywords:
                Safety
                Safety and Health
                Safety Deficiencies
                Corporate database
                Enterprise Architecture
                Information Technology Architecture
                SIMS
                CATS
                NTS
                ORPS
